TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Abuses in the Tax-Exempt Credit
                   Counseling Industry Are Being Addressed,
                   but Further Actions Are Needed to Ensure
                          Overall Industry Compliance



                                              May 2006

                              Reference Number: 2006-10-081




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   May 22, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Abuses in the Tax-Exempt Credit Counseling
                               Industry Are Being Addressed, but Further Actions Are Needed to
                               Ensure Overall Industry Compliance (Audit # 200510020)

 This report presents the results of our review of the Exempt Organizations (EO) function’s
 efforts to oversee the tax-exempt credit counseling industry. The overall objective of this review
 was to assess the EO function’s efforts to address abusive activities by tax-exempt credit
 counseling organizations.

 Synopsis
 The EO function of the Tax Exempt and Government Entities Division has responsibility for
 ensuring charitable or other tax-exempt organizations are in compliance with the Internal
 Revenue Code (I.R.C.). The EO function has two primary programs for ensuring compliance,
 the Determinations Program (reviewing requests from organizations seeking tax-exempt status)
 and the Examinations Program (reviewing information about existing organizations).
 To qualify as a tax-exempt credit counseling organization under I.R.C. § 501(c)(3),1 the
 organization must limit its services to low-income customers or, as its primary activity, provide
 education to the public on how to manage personal finances. However, according to the
 Commissioner of Internal Revenue, the focus of the credit counseling industry has shifted over
 the past several years from providing education or charitable service to inappropriately enrolling
 debtors in proprietary debt management plans2 and credit-repair schemes for a fee. These



 1
  I.R.C. § 501(c)(3) (2005).
 2
  Debt management plans are debt payment arrangements, including debt consolidation arrangements, entered into
 by a debtor and one or more of the debtor’s creditors, generally structured to reduce the amount of a debtor’s regular
                  Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                   Addressed, but Further Actions Are Needed to Ensure Overall
                                       Industry Compliance


activities may be disadvantageous to the debtors and are not consistent with the requirements for
tax exemption. Congress and the Commissioner of Internal Revenue have expressed their
concern that many credit counseling organizations are in violation of I.R.C. § 501(c)(3)
requirements.
                                     Starting in Fiscal Year 2003, EO function management took
         The IRS has begun to        actions to begin to address abuses by tax-exempt credit
           address abuses by         counseling organizations. Specifically, the EO function
     tax-exempt credit counseling    created a multifaceted strategy to combat abuses in the
        organizations, including     industry and designated a team of EO function personnel to
      revoking tax-exempt status
        for some organizations.      oversee the strategic management of its compliance efforts.
     However, the accuracy of the    Also, EO function management added a specialized review
         IRS’ inventory system       of the applications for tax-exempt status from credit
         should be improved to       counseling organizations. In addition, the EO function
       ensure future efforts can     Examinations office initiated a broad examination effort of
         adequately cover this
                industry.            high-risk tax-exempt credit counseling organizations.
                                     Further, the Internal Revenue Service (IRS) has partnered
                                     with the Federal Trade Commission, the National
Association of State Charity Officials, and other industry trade associations to address industry
concerns and establish an ongoing dialogue with outside stakeholders. Finally, at the end of our
fieldwork, the EO function provided us with a working draft of a strategic plan which establishes
current and future plans to address abuses in the tax-exempt credit counseling industry.
However, based on our review of the draft strategic plan and discussions with EO function
personnel, we believe the plan should contain more specific guidelines to improve the accuracy
of the IRS’ inventory system related to credit counseling organizations. An accurate inventory
system of the population of tax-exempt credit counseling organizations will enable the IRS to
ensure its efforts can adequately cover this industry. Specifically, 162 (21 percent) of the
788 organizations contained on the EO function inventory of credit counseling organizations
may not have the proper identification code for tax-exempt credit counseling organizations. In
addition, an initial IRS analysis conducted in 2004 determined that 96 organizations included in
a preliminary universe of credit counseling organizations may be inaccurate. However, 89 of
these organizations were still included on the EO function’s current inventory of 788 credit
counseling organizations at the end of our fieldwork. Further, a February 2005 administrative
decision to change the coding used to close certain types of credit counseling applications
resulted in inconsistent credit counseling data on the IRS’ inventory system.
As part of the Credit Counseling Compliance Project, EO function management has developed
some guidelines on how to process requests for tax-exempt status from credit counseling
organizations. However, these guidelines were generally informal in nature, and some were
ongoing payment by modifying the interest rate, minimum payment, maturity, or other terms of the debt. Such plans
frequently are promoted as a means for a debtor to restructure debt without filing for bankruptcy.
                                                                                                               2
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance


shared with applicable EO function personnel either verbally or via email. In addition, the EO
function was not ensuring all advance ruling cases related to credit counseling organizations
were always reviewed by the specialized Determinations office group to identify any potential
abuses, as required by EO function procedures.

Recommendations
We recommended the Director, EO, take the necessary actions to ensure the EO function
inventory system contains accurate information related to tax-exempt credit counseling
organizations and finalize and implement the draft strategic plan for addressing current and
future credit counseling activities. We also recommended the Director, EO, update and
formalize application processing procedures and related training guides to ensure the consistent
processing of applications for tax-exempt status by credit counseling organizations.

Response
EO function management agreed with our three recommendations. EO function management
will review codes for the credit counseling population to ensure they are accurate and develop
procedures to review incoming referrals to ensure they are accurately coded. In addition, EO
function management issued a directive discontinuing the use of a specific activity code and will
update its inventory records to ensure an accurate and complete population.
EO function management is also finalizing and implementing a strategy to address credit
counseling abuses in the future to ensure compliance in the industry and that any new
organizations are appropriately reviewed. EO function management will incorporate training
guidelines on reviewing credit counseling applications and updated Internet training into a
formal training package. Finally, EO function management issued a directive to reemphasize the
use of procedures for processing specific types of credit counseling cases. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                   3
                      Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                       Addressed, but Further Actions Are Needed to Ensure Overall
                                           Industry Compliance




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Exempt Organizations Function Has Taken Numerous Actions to
          Begin to Address Abuses in the Tax-Exempt Credit Counseling Industry ..Page 3
          Further Actions Should Be Taken to Enable the Exempt Organizations
          Function to Address Abuses Across the Tax-Exempt Credit Counseling
          Industry .........................................................................................................Page 9
                    Recommendation 1:........................................................Page 15

                    Recommendations 2 and 3: ..............................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Outcome Measure ................................................................Page 23
          Appendix V – Management’s Response to the Draft Report .......................Page 25
                   Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                    Addressed, but Further Actions Are Needed to Ensure Overall
                                        Industry Compliance




                                             Background

The practice known as “credit counseling” was initiated during the mid-1960s in an effort to
stem the growing volume of personal bankruptcies. Initially, credit counseling organizations
were community-based, nonprofit organizations that provided a full range of counseling, often in
face-to-face meetings. Trained counselors would advise consumers on how to remedy their
current financial problems, counsel them on budget planning, and educate them on how to avoid
falling into debt in the future. To qualify as a tax-exempt credit counseling organization under
Internal Revenue Code (I.R.C.) Section (§) 501(c)(3),1 the organization must limit its services to
low-income customers or, as its primary activity, provide education to the public on how to
manage personal finances. However, according to the Commissioner of Internal Revenue, the
focus of the credit counseling industry has shifted over the past several years from providing
education or charitable service to inappropriately enrolling debtors in proprietary debt
management plans2 and credit-repair schemes for a fee. These activities may be disadvantageous
to the debtors and are not consistent with the requirements for tax exemption.
Another factor in the growing concern about abuses in this industry is that I.R.C. § 501(c)(3)
organizations are often excluded from coverage under Federal Trade Commission (FTC) rules,
as well as State and local consumer protection laws. This combination of exemption from
income tax and exemption from consumer protection laws may be one of the primary reasons for
the increase in the number of credit counseling organizations seeking tax-exempt status since
Fiscal Year (FY) 2000. Congress and the Commissioner of Internal Revenue have expressed
their concern that many of these credit counseling organizations are in violation of
I.R.C. § 501(c)(3) requirements.
The Exempt Organizations (EO) function of the Tax Exempt and Government Entities Division
has responsibility for ensuring charitable or other tax-exempt organizations are in compliance
with the I.R.C. The EO function has two primary programs for ensuring compliance, the
Determinations Program (reviewing requests from organizations seeking tax-exempt status) and
the Examinations Program (reviewing information about existing organizations). In general, an
organization that wants to be recognized as tax exempt under I.R.C § 501(c)(3) must apply to the
Internal Revenue Service (IRS) for a determination of its status by completing an Application for
Recognition of Exemption Under Section 501(c)(3) of the Internal Revenue Code (Form 1023).
If the organization’s application and supporting documents establish that it meets the particular

1
 I.R.C. § 501(c)(3) (2005).
2
 Debt management plans are debt payment arrangements, including debt consolidation arrangements, entered into
by a debtor and one or more of the debtor’s creditors; they are generally structured to reduce the amount of a
debtor’s regular ongoing payment by modifying the interest rate, minimum payment, maturity, or other terms of the
debt. Such plans frequently are promoted as a means for a debtor to restructure debt without filing for bankruptcy.
                                                                                                            Page 1
                  Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                   Addressed, but Further Actions Are Needed to Ensure Overall
                                       Industry Compliance



requirements of I.R.C. § 501(c)(3), the EO function will issue a determination letter to the
organization to affirm the organization is exempt under I.R.C. § 501(c)(3). In addition, the EO
function Examinations office has responsibility for identifying and reviewing allegations of
potential noncompliance with the I.R.C. by tax-exempt organizations.
An April 2003 report3 from the Consumer Federation of America and the National Consumer
Law Center estimates nearly 9 million people in financial trouble contact credit counseling
organizations annually. According to IRS records, 1,081 potential credit counseling
organizations initially applied to the IRS for tax-exempt status between October 1, 2003, and
October 18, 2005. As of November 2005, IRS inventory records listed 788 approved
tax-exempt credit counseling organizations. Revenue reported for Tax Year 2000 for this
tax-exempt industry was approximately $1 billion.
This review was performed at the Tax Exempt and Government Entities Division Headquarters
in Washington, D.C.; the Cincinnati, Ohio, Area Office; and the EO Examinations office field
office in Mountainside, New Jersey, during the period May through October 2005. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




3
 Credit Counseling in Crisis: The Impact on Consumers of Funding Cuts, Higher Fees, and Aggressive New
Market Entrants.
                                                                                                     Page 2
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance




                                Results of Review

The Exempt Organizations Function Has Taken Numerous Actions to
Begin to Address Abuses in the Tax-Exempt Credit Counseling
Industry
As a result of concerns raised by internal and external stakeholders that many credit counseling
organizations were abusing their tax-exempt status, the EO function designated this issue as one
of its highest priorities in FY 2004 and initiated a Credit Counseling Compliance Project. Based
on our discussions with EO function management and review of applicable documentation, we
determined that, starting in FY 2003, EO function management took actions to begin to address
abuses by tax-exempt credit counseling organizations. Specifically, the EO function created a
multifaceted strategy to combat abuses in the industry and designated a team of EO function
personnel to oversee the strategic management of its compliance efforts. In FY 2004, EO
function management added a specialized review of the applications for tax-exempt status from
credit counseling organizations. In addition, the EO function Examinations office initiated a
broad examination effort of high-risk tax-exempt credit counseling organizations. Further, the
IRS has partnered with the FTC, the National Association of State Charity Officials, and other
industry trade associations to address industry concerns and establish an ongoing dialogue with
outside stakeholders. Finally, at the end of our fieldwork, the EO function provided us with a
working draft of a strategic document which establishes its plans to address abuses in the
tax-exempt credit counseling industry, covering both ongoing work and additional areas needing
coverage in the future.

The EO function has improved its process for reviewing applications for
tax-exempt status by credit counseling organizations
In October 2003, the EO function initiated changes to its application process to ensure increased
scrutiny of organizations requesting tax-exempt status for credit counseling activities.
Specifically, EO function management required that EO function personnel at the Cincinnati
Determinations office identify all applications for tax-exempt status received from credit
counseling organizations, assign a unique tracking code on its inventory system for these
applications, and forward the applications to a new, specialized group for detailed review. This
specialized group, trained in credit counseling issues, was responsible for reviewing all
applications from credit counseling organizations to determine whether tax-exempt status should
be approved. This group conducts a determination review that includes Internet research to
determine if the proposed activities of the organization are in line with the application. If
additional information is required, the specialized group sends the organization an inquiry letter

                                                                                           Page 3
                    Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                     Addressed, but Further Actions Are Needed to Ensure Overall
                                         Industry Compliance



to more fully develop the facts and circumstances of the case. This inquiry letter was
specifically updated for credit counseling activities and has been further refined since the
initiation of the Credit Counseling Compliance Project to provide additional data to help in the
determination process. If no evidence of potential abuse exists, this group will approve the
organization’s request for tax-exempt status and issue a positive determination letter to the
organization.
If evidence of potential abuse exists, additional analysis will be performed to determine if
tax-exempt status should be denied. Prior to October 2003, EO function Determinations office
specialists could deny any requests for tax-exempt status based on the facts contained in the
application and issue a denial letter to the organization without further review. However, starting
in October 2003, as part of the Credit Counseling Compliance Project, EO function management
revised the denial process for credit counseling organizations to ensure consistency in
determining the denial. Specifically, if the specialized group identified potential abusive
activity, the credit counseling application request was sent to the EO Technical office in
Washington, D.C., for further scrutiny. The EO Technical office consists of senior EO function
management with significant experience in exempt organizations law who were trained in credit
counseling issues. The EO Technical office is responsible for providing technical advice and
assistance on exempt organizations issues by responding to specific requests from EO function
personnel and other Government organizations. If the EO Technical office determines the
organization does not meet the requirements under I.R.C. § 501(c)(3), a letter is sent to the
organization proposing denial of the application. As of September 30, 2005, the EO Technical
office had reviewed 119 potentially abusive applications. Of these:
         •   Eighteen were denied.
         •   Ten were proposed for denial (pending administrative action).
         •   Seven were withdrawn by the organization.
         •   Forty-four were closed due to insufficient information.4
         •   Two were approved and given tax-exempt status.
         •   Seven were reclassified as nonabusive and returned to the specialized group for
             review.
         •   Thirty-one were still being reviewed.
At the end of our fieldwork, EO function management was proposing these applications would
no longer be required to be sent to the EO Technical office. Instead, EO function management
was proposing all requests for tax-exempt status by credit counseling organizations be worked to
resolution, including denial if appropriate, by the specialized group in Cincinnati, Ohio, because


4
  The EO Determinations office and EO Technical office designate a case “Failure to Establish” when an applicant
fails to timely respond to a request for additional information the IRS needs to process the application. As a result,
EO function personnel did not have enough information to fully process the application to approve or deny tax-
exempt status.
                                                                                                               Page 4
                    Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                     Addressed, but Further Actions Are Needed to Ensure Overall
                                         Industry Compliance



they believed EO Determinations office personnel now had the skills and resources necessary to
work these cases to resolution. After our fieldwork ended, EO Technical office management
advised us that, beginning in mid-January 2006 for a 6-month period, they plan to coordinate
with the EO function Quality Assurance group to perform a mandatory review of the cases
closed by the specialized group. At the end of this period, the process will be evaluated to
determine if the EO Technical office will need to continue to perform mandatory review of these
cases.

The EO function has initiated a broad examination effort of potentially abusive
credit counseling organizations
The EO function has initiated a broad examination effort of the credit counseling industry. Due
to complex issues involving credit counseling organizations and the need to examine related for-
profit entities,5 if they are used, the Credit Counseling Compliance Project is being worked by
combining EO function personnel with compliance personnel from the IRS Small Business/Self-
Employed and Large and Mid-Size Business Divisions, as well as staff from the Office of Chief
Counsel.
Based on our interviews and review of applicable documentation, the EO function has identified
626 tax-exempt credit counseling organizations for examination to determine if these
organizations are operating within the scope of their tax-exempt status. According to the EO
function, the 62 credit counseling organizations represent approximately 61 percent of the total
estimated revenues7 of the tax-exempt credit counseling organizations that have filed required
annual information returns. As shown in Figure 1, a significant level of noncompliance had been
identified as of September 30, 2005. For example, none of the examinations completed by the
end of our fieldwork had determined the organizations were operating in accordance with their
exempt purpose. In addition, 35 examinations had resulted in the tax-exempt status being
revoked, the revocation was pending, or the organization had been referred for consideration by
the Criminal Investigation function. This unusually high noncompliance rate may have resulted
because the majority of these examinations were initiated after referrals from external sources,
such as Attorneys General of various States, the FTC, media leads, and other third parties. EO
function management’s goal is to complete 60 of the examinations by December 31, 2006.
Examination completion dates for two newly assigned cases were unknown as of January 2006.




5
  For-profit entities related to credit counseling organizations include entities that are involved in the administrative
processing of debt management plans.
6
  Initially, the EO function identified 60 tax-exempt credit counseling organizations for examination. Subsequently,
two additional credit counseling organizations were identified for examination in August 2005.
7
  Based on Tax Year 2000 filing data.
                                                                                                                 Page 5
                       Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                        Addressed, but Further Actions Are Needed to Ensure Overall
                                            Industry Compliance



        Figure 1: Status of IRS Examinations of 62 Credit Counseling Organizations
                                 As of September 30, 2005
                                                                                          Percentage of the Estimated
                                                          Estimated Annual Revenues8
        Status of the 62 Credit                                                         Annual Revenues9 Compared to
                                            Number of     for the Organizations Being
       Counseling Organizations                                                          the Entire Tax-Exempt Credit
                                              Cases          Examined, by Status of
       Selected for Examination                                                               Counseling Industry
                                                                  Examination
                                                                                            ($990,281,021 Annually)
 Case Assigned but Not Started                  9                 $59,265,379                        6%
 Examination Ongoing                           18                $151,608,832                       15%
 Closed – Tax-Exempt Status
 Revoked                                        6                 $4,097,044                        .4%
 Examination Completed –
 Revocation of Tax-Exempt Status
 Proposed                                      21                $354,446,191                       36%
 Referred to the Criminal
 Investigation Function for Potential
 Fraud                                          8                 $36,717,417                        4%
 Total Inventory:                              62                $606,134,863                       61%
Source: EO function Examinations office status reports.

  The IRS has coordinated with outside stakeholders to increase awareness of
  potentially abusive tax-exempt credit counseling activities
  During the past several years, the IRS has provided outreach efforts related to questionable
  activities performed by credit counseling organizations. The IRS has also acted to establish an
  ongoing dialogue with other organizations to coordinate enforcement actions and share limited
  information. These outreach efforts have helped to educate the public about the IRS’ efforts to
  increase compliance in the credit counseling industry, as well as inform tax-exempt credit
  counseling organizations of the standards that must be met to maintain tax-exempt status.
  Specifically, the IRS has:
             •   Partnered with the FTC and Attorneys General from various States to issue a
                 consumer alert in October 2003 through a news release and fact sheet to warn
                 consumers some credit counseling organizations are engaging in questionable
                 activities. The news release warns the public of high fees or required “voluntary
                 contributions” that, with high monthly service charges, may add to their debt and
                 defeat their efforts to pay bills.


  8
      Based on Tax Year 2000 filing data.
  9
      Based on Tax Year 2000 filing data.
                                                                                                    Page 6
                      Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                       Addressed, but Further Actions Are Needed to Ensure Overall
                                           Industry Compliance



           •    Conducted presentations at various credit counseling trade association conferences to
                inform participants about the IRS’ credit counseling initiative and to open a dialog
                with participants.
           •    Conducted presentations in 2003 and 2005 to the American Bar Association and
                discussed potential problems relating to the credit counseling industry.
           •    Prepared a Continuing Professional Education article on credit counseling
                organizations for EO function personnel and posted the article on the Tax Exempt and
                Government Entities Division public web site on January 13, 2003, to raise awareness
                of potential abuses by credit counseling organizations and discuss the qualifications
                for credit counseling organizations under I.R.C. § 501(c)(3).
           •    Developed an informational training video in conjunction with the Attorneys General
                from various States and the FTC that discussed potential abuses within the credit
                counseling industry. This video was broadcast within the IRS on March 5, 2003, and
                April 22, 2003, shared with the States, and sent to Congressional staff.
           •    Initiated meetings in FY 2004 with the United States Bankruptcy Trustees office to
                discuss the impact of the Bankruptcy Abuse and Consumer Protection Act of 200510
                (signed into law on April 20, 2005) on tax-exempt credit counseling organizations.
           •    Held discussions with three trade associations in August 2005 to obtain concerns
                related to the credit counseling industry.
           •    Sponsored practitioner telephone forums on changes made to the application for tax
                exemption and IRS observations on the new applications received (e.g., what types of
                information are typically missing or omitted from the applications).

IRS management has revised tax forms and prepared plans to help address credit
counseling abuses in the future
The IRS has revised two key forms which should help the effort to address abuses in tax-exempt
organizations, including credit counseling organizations. In October 2004, the IRS issued a
revised Form 1023, which is used for all types of organizations seeking tax exemption under
I.R.C. § 501(c)(3). The revised Form added questions focusing on the relationship between the
applicant and any management or servicing entities with which it does business. The additional
information will be used to assist EO function personnel to more easily evaluate the credit
counseling organization’s application by disclosing the relationships the applicant has with
for-profit entities.



10
     Pub. L. No. 109-8, 109 Stat. 23 (2005).
                                                                                               Page 7
                      Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                       Addressed, but Further Actions Are Needed to Ensure Overall
                                           Industry Compliance



The IRS also revised the Return of Organization Exempt From Income Tax (Form 990) in 2004
to specifically require tax-exempt organizations to disclose whether they provide credit
counseling, debt management, credit repair, or debt negotiation services. This information will
help identify organizations that have added credit counseling activities after having established
tax-exempt status as a different kind of charitable organization. This revised annual information
return was effective for all Forms 990 filed for Tax Year 2004. A planned revision to the 2005
Form 990 includes a further request that tax-exempt organizations list the top five highest paid
independent contractors for other than professional services.11 This additional information may
also help to identify possible abuses in the credit counseling industry, including relationships
between board members or executives and independent contractors who are being paid for
substantial work.
Further, EO function management has prepared a draft strategy detailing future plans to address
the problems in the tax-exempt credit counseling industry. This strategy was developed to
expedite the examination of cases open at the time the strategy document is finalized, streamline
the approach for future Determinations and Examinations office reviews of credit counseling
organizations, and ensure consistency on all credit counseling cases worked by the EO function.
This strategy includes the development of additional analytical tools that will be used by
Examinations and Determinations office personnel to evaluate key issues common to tax-exempt
credit counseling organizations to determine if the organizations are operating within
I.R.C. § 501(c)(3) guidelines and to take any necessary steps to ensure compliance. The draft
strategy was initially scheduled to be prepared by March 1, 2005. However, this strategy was
still in draft status and not yet approved as of October 2005. EO function management attributed
the delay in obtaining final approval to the complexity of the issues involved.
Based on our review of documentation outlining the draft strategy, EO function management has
identified several areas that need to be addressed to more effectively and efficiently review and
analyze tax-exempt credit counseling organizations (by both Determinations and Examinations
office personnel) to ensure compliance within this industry. These actions, some of which had
been developed but not yet fully implemented by the end of our fieldwork, include:
           •    Enhancing guidance that can be used by EO function Determinations and
                Examinations office personnel to identify the minimum standards that must be met
                for new organizations to be granted tax-exempt status for credit counseling activities,
                as well as attributes that should be developed to support a decision to revoke/deny
                tax-exempt status.
           •    Implementing revised classification criteria to better assist in the identification of
                potentially noncompliant credit counseling organizations for examination. The
                revised criteria will be modified based on information learned during the Credit


11
     Professional services include accountants, lawyers, auditors, professional fundraisers, etc.
                                                                                                    Page 8
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance



           Counseling Compliance Project on the common indicators of abusive activities.
           Although some of the examinations in the Compliance Project were the result of
           internal IRS referrals, the majority of the 62 examinations were based on external
           referrals. Based on the revised criteria, the EO function anticipates it will also be able
           to identify high-risk noncompliant organizations through internal reviews.
       •   Implementing a separate process for identifying and examining organizations that
           have not filed a current information return.
       •   Following up on organizations that have had tax-exempt status revoked to ensure they
           are no longer in business. This will be a future effort, as the first revocations are
           being processed through the current Compliance Project.
       •   Performing additional work on organizations whose requests for tax-exempt status
           were denied or not established during the application process, to ensure these
           organizations are not continuing to operate and falsely informing the public they are
           tax exempt.
       •   Establishing a periodic review schedule of organizations that have agreed to
           discontinue their abusive activities so they can continue to maintain their tax-exempt
           status.
       •   Correcting its database of tax-exempt credit counseling organizations by contacting
           small organizations not required to file Form 990 (organizations with gross receipts
           that do not exceed $25,000) and other credit counseling organizations not under
           examination to determine if they are currently providing credit counseling services.

Further Actions Should Be Taken to Enable the Exempt Organizations
Function to Address Abuses Across the Tax-Exempt Credit
Counseling Industry
As stated previously, EO function management has taken numerous actions to begin to address
abuses by tax-exempt credit counseling organizations. According to EO function management,
these actions have served to halt the proliferation of new abusive credit counseling organizations
and to revoke the exemption of existing abusive credit counseling organizations. However,
based on the high level of noncompliance identified to date by the EO function and the potential
for a continued increase in credit counseling organizations seeking tax-exempt status, we believe
there is significant continued risk for abuses in this area. EO function management has
recognized that additional actions are needed to address the rest of the industry, and the EO
function is continuing to emphasize its efforts in the tax-exempt credit counseling industry. This
is reflected in its draft strategic plan.



                                                                                              Page 9
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance



However, based on our review of the draft strategic plan and discussions with EO function
personnel, we believe the plan should contain more specific guidelines to improve the accuracy
of the IRS’ inventory system related to credit counseling organizations. We identified
inaccuracies on the inventory system, which we discussed with EO function management during
our fieldwork. Although the draft strategic plan contains general guidelines to improve the
accuracy of information for credit counseling organizations on the IRS’ inventory system, we do
not believe these guidelines are specific enough to ensure the inventory system will be accurate.
An accurate inventory system of the population of tax-exempt credit counseling organizations
will enable the IRS to ensure its efforts can adequately cover this industry. This assurance,
however, will not be attained until the strategic plan is finalized and implemented and actions are
taken to correct the inaccuracies in the inventory system. In addition, we identified the need to
update and formalize procedures to ensure credit counseling cases are processed consistently.

The EO function’s inventory system does not contain accurate information
related to the population of credit counseling organizations
Based on our review of available documentation, we determined the EO function does not have
accurate information on its inventory system to identify all credit counseling organizations. EO
function management also expressed concerns with the accuracy of this information. For
example:
   •   In FY 2004, EO function staff identified organizations on its inventory system that may
       not be credit counseling organizations; however, these organizations were still coded as
       credit counseling organizations at the end of our fieldwork. We believe these
       organizations should be reviewed to determine whether they are accurately coded on the
       inventory system.
   •   In addition, some organizations referred to the EO Referral and Claims Classification
       Unit as participating in potentially abusive credit counseling activities were not included
       in the EO function’s population of credit counseling organizations as of October 2005.
If organizations are not properly coded on the IRS’ inventory system, there is a risk that
potentially abusive credit counseling organizations may not be identified by EO function
personnel for future compliance activity. With the high risk of abuse in the industry, this may
allow abuses to continue undetected, resulting in the loss of potential tax revenues. In addition,
inaccurate information related to these organizations may result in inefficient use of limited EO
function resources and increased taxpayer burden if organizations improperly coded as credit
counseling organizations are selected for examination and it is determined they are in
compliance with the laws.




                                                                                           Page 10
                    Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                     Addressed, but Further Actions Are Needed to Ensure Overall
                                         Industry Compliance



Since approximately 1995, the IRS has used the National Taxonomy of Exempt Entities
(NTEE)12 coding system to classify organizations that have been approved for tax-exempt status.
Special care is needed in selecting the appropriate NTEE code for each organization because it is
relied on as a source of data by a variety of organizations, including the IRS Statistics of Income
Division,13 the Urban Institute,14 GuideStar, 15 various grantmakers, and many other public and
private sector entities. An IRS official stated NTEE codes are critical to identify exempt
organizations market segments and submarket segments because other identifying methods, such
as an organization’s name, are not necessarily an indication of its purpose and activities.
Since October 2003, all potential credit counseling applications for tax-exempt status are
assigned an initial tracking code on the EO function’s application inventory system by EO
function Determinations office staff. When the application request is closed by EO function
personnel (i.e., a determination letter is issued to the organization), the NTEE code is entered on
the inventory system to indicate the organization’s activity based on information reviewed during
the determination process. Generally, NTEE Code P5116 is assigned to credit counseling
activities. Tax-exempt organizations are required to notify the EO function of changes to the
types of services provided; at that time, EO function personnel will change the NTEE code, if
applicable.
As part of the Credit Counseling Compliance Project, EO function personnel analyzed their
computer systems to identify the total population of approved tax-exempt credit counseling
organizations. EO function management stated the identification of credit counseling
organizations was difficult because they needed to research various coding systems to identify a
potential universe of credit counseling organizations. Prior to the use of NTEE codes, the IRS
relied on activity codes to identify the primary activity of organizations applying for
tax-exempt status. The NTEE coding system was phased into the IRS’ coding methodology and
became the primary classification tool in the late 1990s to categorize the activity of new
organizations applying for tax-exempt status. Based primarily on NTEE codes, activity codes,
and the name of the organization contained on its computer systems, EO function management

12
   The NTEE offers a definitive classification system for nonprofit organizations recognized as tax exempt under the
I.R.C. These charitable organizations are exempt from Federal taxes because of their religious, educational,
scientific, and public purposes. The broad range of their activities includes health, human services, arts and culture,
education, research, and advocacy. The use of the NTEE is key to illuminating the diversity of the nonprofit sector.
13
   The Statistics of Income Division conducts the IRS’ studies on the operations of the tax laws with respect to
individuals, corporations, partnerships, sole proprietorships, estates, exempt organizations, trusts, and the
international area.
14
   The Urban Institute is a nonpartisan economic and social policy research organization.
15
   GuideStar is a leader in providing comprehensive data on more than 1.5 million nonprofit organizations,
connecting them with donors, foundations, businesses, and governing agencies in a nationwide community of
giving.
16
   P51 Financial Counseling - Organizations that provide advice and guidance for people who need assistance in
obtaining credit, obtaining or correcting information in their credit records, reducing their debt burden, or managing
their financial resources more effectively.
                                                                                                             Page 11
                   Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                    Addressed, but Further Actions Are Needed to Ensure Overall
                                        Industry Compliance



identified a potential population of 788 approved tax-exempt credit counseling organizations.
However, this population did not contain accurate information at the time of our review. EO
function management stated the various coding systems may have contributed to potential
inaccuracies of the population. For example, an organization involved in credit counseling
activities may not have been coded with NTEE Code P51 because the organization’s original
activity was not identified as credit counseling on its initial application request for
tax-exempt status. In addition, an organization involved in credit counseling activities may not
have a NTEE code on the IRS computer system because the original application for tax-exempt
status was received before the use of NTEE codes was adopted by the IRS. Based on our review
of coding information contained on the IRS database of credit counseling organizations, we
determined:
     •   The NTEE code for 162 (21 percent) of the 788 organizations was not P51. Based upon
         our review of the information contained on the IRS inventory database, many of these
         organizations appear to be involved with credit counseling activities.
     •   An initial IRS analysis conducted in 2004 determined 96 organizations included in a
         preliminary universe of credit counseling organizations may be inaccurate. However,
         89 of these organizations were still included on the EO function’s current inventory of
         788 credit counseling organizations at the end of our fieldwork and should be reviewed to
         determine whether they are accurately coded on the inventory system.
     •   Five of the 62 credit counseling organizations currently under examination for suspected
         abuses were not initially included as part of the 788 organizations. EO function
         personnel subsequently added these five cases to ensure they were included in the overall
         inventory. However, these cases have not been updated with NTEE Code P51.
In addition, the EO Referral and Claims Classification Unit had received 110 referrals of
organizations engaging in potentially abusive credit counseling activities since April 2000.
Some of these organizations are currently under examination, and others have been identified by
EO function management for examination in future years. However, we determined that 9 of the
tax-exempt organizations identified for future compliance activity are not included in the
population of 788 organizations.
Further, we identified a decision by EO function management that resulted in inconsistent credit
counseling data on the IRS inventory system. Specifically, around February 2005, EO function
personnel in Washington, D.C., directed EO function Determinations office personnel in
Cincinnati, Ohio, to use NTEE Code P5017 to close credit counseling applications that do not
require further scrutiny by the EO Technical office in Washington, D.C. These would generally
include credit counseling organizations involved primarily in financial literacy (education)


17
  P50 Personal Social Services - Organizations that provide a variety of personal social services, such as,
assertiveness training, personal enrichment, sensitivity training, and individual development.
                                                                                                              Page 12
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance



services and not debt management plans. EO Technical office personnel believed this change
was necessary at the time to distinguish potentially abusive credit counseling organizations from
those involved in financial literacy.
However, we believe these organizations meet the definition of credit counseling organizations
and should be coded with NTEE Code P51. As a result, credit counseling organizations
engaging in similar activities may have different NTEE codes on the EO function computer
system. This coding change, which was still in effect at the end of our fieldwork, will affect the
IRS’ ability to accurately determine the population of tax-exempt credit counseling
organizations. Furthermore, the EO function’s use of NTEE Code P50 is not consistent with the
standard practice involved in the use on this Code. Specifically, NTEE Code P50 relates to a
variety of personal social services, not financial activities.
We identified 28 credit counseling applications processed during the period October 1, 2003,
through August 8, 2005, that were coded with NTEE P50 and judgmentally sampled 15 of these
cases to determine the primary activity of the organizations. Based on Internet research, we
determined that six of these organizations were involved in credit counseling activities. We
believe these six cases should have been closed using NTEE Code P51 to ensure consistency on
the EO function inventory system. We could not determine the primary activity of the remaining
nine organizations due to the lack of documentation or information available on the Internet.

EO function management should update and formalize procedures for processing
applications for tax-exempt status by credit counseling organizations
As part of the Credit Counseling Compliance Project, EO function management has developed
guidelines on how to process requests for tax-exempt status from credit counseling
organizations. However, these guidelines were generally informal in nature, and some were
shared with applicable EO function personnel either verbally or via email. This presents a risk
that EO function personnel may process requests inconsistently if they did not receive or
correctly understand all the informal guidelines. EO function management should update and
formalize its procedures related to the screening, processing, and closing of applications for
tax-exempt status to ensure EO function personnel process credit counseling applications
consistently. Specifically:
   •   The procedures followed by EO function Determinations office personnel (“screeners”)
       who initially review applications for tax-exempt status should be reconsidered to improve
       the effectiveness of the research. In August 2004, these screeners were provided, via
       email, a list of 12 key words to help identify potential credit counseling applications. In
       June 2005, an additional seven key words were provided via email for use in identifying
       potential credit counseling organizations involved in bankruptcy services. These
       applications were then sent to the specialized Determinations office group for review.
       While we recognize the importance of identifying a broad population of potential credit
       counseling applications, we believe the current process should be improved to more

                                                                                           Page 13
            Abuses in the Tax-Exempt Credit Counseling Industry Are Being
             Addressed, but Further Actions Are Needed to Ensure Overall
                                 Industry Compliance



    effectively identify actual credit counseling applications. This will provide EO function
    management with more accurate information related to the number of credit counseling
    applications received, as well as reduce the workload of the specialized group.
    For example, during the period October 1, 2003, through October, 18, 2005, screeners
    identified 1,081 initial applications using these key words, and the applications were
    assigned to the specialized group to review as potential credit counseling organizations.
    Of these, 686 (63 percent) have been closed and the remaining 395 were still open at the
    end of our fieldwork. However, only 129 (19 percent) of the 686 closed initial
    applications were assigned NTEE Code P51 relating to credit counseling, with the
    remainder showing a different NTEE code (not relating to credit counseling). This
    indicates the current screening process does not use good indicators for identifying
    possible credit counseling organizations. EO function management should assess the
    effectiveness of the key words used to identify potential credit counseling organizations
    and issue formalized guidelines containing the most productive manner to identify these
    cases.
•   A documented training guide should be developed to ensure EO function Determinations
    office specialists follow consistent procedures when processing applications for
    tax-exempt status by credit counseling organizations. During FY 2005, a realignment of
    the Cincinnati, Ohio, Determinations office resulted in three staff members, new to credit
    counseling, being assigned to the specialized group to process credit counseling
    applications. These employees had to rely primarily on informal or verbal instruction to
    review credit counseling applications. A formal written training guide would help
    ensure staff follow consistent and proper procedures when credit counseling applications
    are processed. For example, Internet research is a valuable tool used by Determinations
    office specialists to determine whether applications for tax-exempt status should be
    approved or denied. Internet research is used to compare the data on the application
    against the information listed on the applicant’s web site, if available. EO
    Determinations office specialists stated that the EO Technical office provided initial
    training on a face-to-face basis on how to perform Internet research for the credit
    counseling applications. After we provided EO function management with a preliminary
    draft report, they provided us with a one-page document containing limited guidelines for
    performing Internet research for credit counseling applications. EO function
    management stated this document was provided to EO Determinations office specialists
    during the initial training provided by the EO Technical office. However, we believe
    more detailed guidance is needed to ensure the best practices identified among the group
    can assist Determinations office personnel in ensuring applications are reviewed in the
    most effective manner.




                                                                                      Page 14
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance



Credit counseling organizations that were provided an initial classification as a
public charity when approved for tax-exempt status were not always being
reviewed by the specialized Determinations office group for potential abusive
activities
If organizations meet the requirements of the law and have completed at least 8 months of their
first year of operation, Determinations office specialists will provide a definitive ruling to
approve tax-exempt status. Conversely, advance rulings, based on Department of the Treasury
Regulations, are given when organizations have not completed a tax year of at least 8 months. In
an advance ruling, charitable organizations are granted a determination that they will be
considered to be publicly supported tax-exempt organizations during a specified “advance
ruling” period. The advance ruling period is usually 5 years from the date of formation of the
exempt organization. At the end of the advance ruling period, EO function personnel request
that the organizations substantiate the amount of public support they have received for the 5-year
period.
The EO function was not ensuring all advance ruling cases related to credit counseling
organizations were reviewed by the specialized Determinations office group to identify any
potential abuses, as required by EO function procedures. Specifically, we reviewed 13 advance
ruling cases to determine if they were assigned to the specialized group responsible for further
scrutiny of all credit counseling applications. We determined that none of the 13 closed cases
were reviewed by the specialized group and were closed by other EO function personnel. EO
function management should reemphasize these procedures to ensure these types of cases receive
the appropriate scrutiny to increase assurances that any potential abuses are identified and
referred to the appropriate group for review.

Recommendations
Recommendation 1: The Director, EO, should take the following actions to ensure the EO
function inventory system contains accurate information related to tax-exempt credit counseling
organizations:
   •   Review the improperly coded cases identified by the Treasury Inspector General for Tax
       Administration and ensure these cases are correctly coded on the EO function inventory
       system as credit counseling organizations or other organizations, as appropriate.
   •   Review the population of 788 organizations included on the EO function inventory of
       credit counseling organizations and ensure this inventory contains only credit counseling
       organizations with the proper NTEE code.
   •   Develop procedures to ensure the EO function credit counseling inventory is accurately
       updated for referrals of credit counseling organizations engaging in potentially abusive
       activities.

                                                                                          Page 15
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance



   •   Discontinue the use of the NTEE Code P50 for credit counseling organizations granted
       tax-exempt status. The inventory system should be updated to change the NTEE
       Code P50 to P51 for credit counseling organizations, to ensure an accurate and complete
       population.
       Management’s Response: IRS management agreed with this recommendation. EO
       function management will review codes for the credit counseling population to ensure
       they are accurate. Also, EO function management will develop procedures to review
       incoming referrals of organizations conducting credit counseling activities to ensure they
       are accurately coded. In addition, EO function management has issued a directive
       discontinuing the use of NTEE Code P50 for organizations conducting credit counseling
       activities and will change the NTEE Code P50 to P51 to ensure an accurate and complete
       population.
Recommendation 2: The Director, EO, should finalize and implement the draft strategic plan
outlining additional actions for addressing credit counseling abuses in the future to ensure the
rest of the tax-exempt credit counseling industry is in compliance and any new organizations are
appropriately reviewed.
       Management’s Response: IRS management agreed with this recommendation. EO
       function management is finalizing and implementing a strategy to address credit
       counseling abuses in the future to ensure the credit counseling industry is in compliance
       and any new organizations are appropriately reviewed.
Recommendation 3: To ensure the consistent processing of applications for tax-exempt
status by credit counseling organizations, the Director, EO, should update and formalize
procedures to process applications and related training guides as follows:
   •   Develop formalized guidelines containing the most productive manner to review
       applications for tax-exempt status to identify potential credit counseling organizations.
       EO function management should also assess the effectiveness of the key words used to
       search for potential credit counseling organizations to determine whether they can be
       refined.
   •   Develop formalized procedures on how best to perform Internet research and include
       these in an updated training guide for processing credit counseling cases.
   •   Reemphasize the use of procedures for the processing of advance ruling credit counseling
       cases.
   •   Develop procedures to ensure approved applications for tax-exempt status by credit
       counseling organizations are coded with NTEE Code P51 for consistency on the EO
       function’s inventory system.



                                                                                           Page 16
        Abuses in the Tax-Exempt Credit Counseling Industry Are Being
         Addressed, but Further Actions Are Needed to Ensure Overall
                             Industry Compliance



Management’s Response: IRS management agreed with this recommendation. EO
function management will incorporate training guidelines and Internet training into a
formal training package for the review of credit counseling applications. EO function
management has issued a directive to reemphasize the use of procedures for processing
advance ruling cases. EO function management has procedures in place to ensure
approved applications are coded with NTEE Code P51 for consistency on the inventory
system and has issued a directive to discontinue the use of NTEE Code P50 for
organizations conducting credit counseling activities.




                                                                              Page 17
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance



                                                                                     Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Exempt Organizations (EO) function’s
efforts to address abusive activities by tax-exempt credit counseling organizations. Due to
resource limitations, we did not perform audit tests to determine the reliability of the information
contained in the databases obtained from the EO function. To accomplish this objective, we:
    I. Obtained statistical data on the credit counseling industry and EO function management’s
       oversight of the credit counseling area.
           A. Researched available data to determine the number of credit counseling
              organizations currently granted tax-exempt status and the amount of revenue
              associated with these organizations.
           B. Obtained available data from EO function management that showed the number
              of applications for tax-exempt status received from credit counseling
              organizations for the period October 1, 2003, through October 18, 2005, and the
              disposition/status of these applications.
           C. Obtained available data from EO function management that showed the number
              of examinations conducted on credit counseling organizations as of
              September 30, 2005, and the disposition of these examinations.
   II. Assessed the method for processing requests for tax-exempt status from credit counseling
       organizations to determine if EO function management is detecting and deterring abusive
       credit counseling activities.
           A. Interviewed applicable EO function management to determine the current method
              and procedures followed when processing applications for tax-exempt status by
              credit counseling organizations.
           B. Determined any recent changes implemented by EO function management to
              process applications for tax-exempt status by credit counseling organizations.
           C. Identified planned changes by EO function management to process these types of
              applications.
           D. Determined training provided by EO function management regarding how these
              types of applications should be reviewed.
           E. Determined if any emerging issues or trends identified during the determination
              process have been shared with other EO functions.

                                                                                            Page 18
                   Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                    Addressed, but Further Actions Are Needed to Ensure Overall
                                        Industry Compliance



             F. Reviewed the Application for Recognition of Exemption Under Section 501(c)(3)
                of the Internal Revenue Code (Form 1023) (Rev. October 2004) to determine if
                the October 2004 changes to the Form will assist EO function management in
                developing information about potentially abusive credit counseling areas.
             G. Determined if advance ruling cases related to credit counseling organizations
                were reviewed by the specialized Determinations office group as required. We
                obtained an Employee Plans and Exempt Organizations Determination System
                (EDS) computer listing and reviewed all 13 advance ruling cases that were merit
                closed1 during the period January through June 15, 2005.
             H. Obtained and reviewed a judgmental sample of 15 of the 28 credit counseling
                applications contained on an EDS extract that were processed during the period
                October 1, 2003, through August 8, 2005, and coded as personal social services to
                determine the primary activity of the organizations. We used a judgmental
                sampling methodology due to time constraints and because we did not plan to
                project our audit results.
             I. Obtained and reviewed the EO function inventory of approved tax-exempt credit
                counseling organizations to determine if it contained accurate coding information.
             J. Obtained and reviewed an extract from the EO Referral and Claims Classification
                Unit database to identify organizations referred to the IRS as engaging in
                potentially abusive credit counseling organizations from April 2000 through
                September 1, 2005.
    III. Assessed EO function management’s process for conducting audits of credit counseling
         organizations.
             A. Interviewed applicable EO function management to determine the current process
                and procedures followed when conducting examinations of credit counseling
                organizations.
             B. Determined any recent changes implemented by EO function management to
                conduct examinations of credit counseling organizations.
             C. Identified any planned changes by EO function management to examine these
                types of organizations.
             D. Determined training provided by EO function management regarding how these
                types of organizations should be examined.


1
  Merit closures are made when EO function personnel approve an application for tax-exempt status based on the
information submitted, without requesting additional information from the applicant and without assigning the case
to a specialist.
                                                                                                          Page 19
             Abuses in the Tax-Exempt Credit Counseling Industry Are Being
              Addressed, but Further Actions Are Needed to Ensure Overall
                                  Industry Compliance



        E. Determined the status of EO function management’s ongoing examinations of
           credit counseling organizations and results as of September 30, 2005.
        F. Determined if credit counseling abuses identified in examinations performed as of
           September 30, 2005, have been provided to Rulings and Agreements office
           personnel to improve the effectiveness of the determination process in detecting
           and deterring potentially abusive credit counseling organizations.
IV. Assessed EO function management’s efforts to coordinate with State officials and other
    Federal agencies to better address potentially abusive credit counseling organizations.
        A. Interviewed EO function management to identify any actions taken to improve
           coordination with any State or other Federal agency.
        B. Determined any actions planned by EO function management to better coordinate
           with State or Federal agencies in the future.




                                                                                     Page 20
               Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                Addressed, but Further Actions Are Needed to Ensure Overall
                                    Industry Compliance



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Jeffrey M. Jones, Audit Manager
Kenneth C. Forbes, Lead Auditor
Theresa M. Berube, Senior Auditor
Donald J. Martineau, Auditor
Carol A. Rowland, Auditor




                                                                                      Page 21
               Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                Addressed, but Further Actions Are Needed to Ensure Overall
                                    Industry Compliance



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 22
                   Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                    Addressed, but Further Actions Are Needed to Ensure Overall
                                        Industry Compliance



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    •   Reliability of Information – Potential; 227 tax-exempt organizations affected
        (see page 9).

Methodology Used to Measure the Reported Benefit:
We obtained a Return Inventory Control System extract that identified, as of
November 16, 2005, a universe of 788 tax-exempt credit counseling organizations. In addition,
we obtained a data extract from the Exempt Organizations (EO) function Referral and Claims
Classification Unit database that identified 110 referrals of organizations referred to the EO
function from April 2000 through September 1, 2005, as engaging in potentially abusive credit
counseling activities. Further, we judgmentally sampled 15 cases that were closed with National
Taxonomy of Exempt Entities (NTEE)1 Code P50 to determine the primary activity of these
organizations. Based upon our review of coding information contained on the Internal Revenue
Service (IRS) database of credit counseling organizations, we determined:
    •   162 (21 percent) of the 788 credit counseling organizations were not coded with NTEE
        Code P51. Based upon our review of the information contained on the IRS inventory
        database, many of these organizations appear to be involved with credit counseling
        activities.
    •   50 of the 788 organizations may not be credit counseling organizations. An initial IRS
        analysis conducted in 2004 determined that 96 organizations included in a preliminary
        universe of credit counseling organizations may be included erroneously. However,
        89 of these organizations were still included on the EO function’s current inventory of
        788 credit counseling organizations. We eliminated 39 of these organizations because
        they were also included in the 162 organizations that were not coded with NTEE
        Code P51, leaving 50 additional organizations not correctly coded.



1
 The NTEE offers a definitive classification system for nonprofit organizations recognized as tax exempt under the
Internal Revenue Code.
                                                                                                         Page 23
                Abuses in the Tax-Exempt Credit Counseling Industry Are Being
                 Addressed, but Further Actions Are Needed to Ensure Overall
                                     Industry Compliance



   •   9 of the 110 organizations referred to the IRS as engaging in potential abusive credit
       counseling activities have been identified for future compliance activity but are not
       included in the population of 788 organizations.
   •   6 of the 15 sampled cases were involved in credit counseling activities and should have
       been closed using NTEE Code P51 to ensure consistency on the EO function inventory
       system.
(162 + 50 + 9 + 6 = 227 organizations with potentially inaccurate information on the EO function
inventory system).




                                                                                          Page 24
    Abuses in the Tax-Exempt Credit Counseling Industry Are Being
     Addressed, but Further Actions Are Needed to Ensure Overall
                         Industry Compliance



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 25
Abuses in the Tax-Exempt Credit Counseling Industry Are Being
 Addressed, but Further Actions Are Needed to Ensure Overall
                     Industry Compliance




                                                       Page 26
Abuses in the Tax-Exempt Credit Counseling Industry Are Being
 Addressed, but Further Actions Are Needed to Ensure Overall
                     Industry Compliance




                                                       Page 27
Abuses in the Tax-Exempt Credit Counseling Industry Are Being
 Addressed, but Further Actions Are Needed to Ensure Overall
                     Industry Compliance




                                                       Page 28
